                                                                   J


                                                 IG NO. 91FBD013
                                                  M A Y 1991




                Review of
  Titling a n d Indexing Procedures
       Utilized by the Defense
Criminal Investigative Organizations




                  INSPECTOR GENERAL
              DEPARTMENT OF DEFENSE
   CRIMINAL INV E STIG AT10 N S PO LlCY AN D OVER S 1 G HT
        TITLING AND INDEXING PROCEDURES UTILIZED BY THE

          DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS


                       EXECUTIVE SUMMARY

     The House Armed Services Committee (HASC) recently
recommended that the Department of Defense (DoD) military
criminal investigative organizations (MCIOs) needed to establish
a uniform standard for 88titling11
                                 individuals as subjects of an
investigation. The HASC report recommended that the titling
standard should be set as probable cause to believe the
individual had committed the alleged offense being investigated.
The Office of the Inspector General, DoD, (OIG, DoD) was tasked
to determine the feasibility of the recommendation.
     The OIG, DoD, reviewed in detail the titling policies of the
MCIOs. The OIG, DoD, which is responsible for establishing
criminal investigative policy in DoD, also conducted the review
to determine the effectiveness and efficiency of the existing
titling     indexing policies, astitling is no more than a step
in maintaining indices of investigations. Further, the review
sought to assess the impact of the .HASC recommendation on the
efficiency and effectiveness of maintaining and retrieving DoD
investigative records. Included in the review for comparison
were the titling and indexing policies of the: Defense Criminal
Investigative Service; Defense Investigative Service; Department
of the Army Military Intellige-nce-Counterintelligence; Federal
Bureau of Investigations; U . S . Customs Service; Bureau of
Alcohol, Tobacco and Firearms; Internal Revenue Service Criminal
Investigation Division and Inspection Service; and United States
Secret Service.
     The OIG, DoD, review confirmed the need for consistent
titling and indexing policies among the Defense criminal
investigative organizations. The review also found that the
standard recommended in the HASC report would have significant
negative impact on DoD investigative operations and would be
inconsistent with the policies of the law enforcement community.
A DoD criminal investigations titling and indexing policy will be
developed based on the findings of the OIG, DoD review. The
policy will establish that an individual will be titled as the
subject of an investigation when sufficient evidence is developed
to warrant an investigation of any allegations. The policy will
further provide that indices of investigations will be maintained
with more stringent requirements limiting removal of names from
such indices.
            TITLING AND INDEXING PROCEDURES UTILIZED BY
          THE DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS
                        TABLE OF CONTENTS
A.   INTRODUCTION
B.   PURPOSE AND SCOPE OF STUDY
C.   SUMMARY
D.   BACKGROUND
     1.    Purpose Of Investigations And Reports             3
     2.    Purpose Of Titling                                3
     3.    Defense Clearance and Investigations Index (DCII) 3
E.   CURRENT TITLING AND INDEXING PROCEDURES
     1.    Army Criminal Investigation Command               4
     2.    Naval Investigative Service                       6
     3.    Air Force Office Of Special Investigations        7
     4.    Defense Criminal Investigative Service            7
     5.    Titling And Indexing Policies Of Additional
           Agencies
           a. Defense Investigative Service                  7
           b. Department Of The Army Deputy Chief Of
               Staff Intelligence-counterintelligence
               Central controi Office                        8
           c. Federal Bureau Investigation                   a
           d. Bureau Of Alcohol, Tobacco And
               Firearms                                      9
           e. U.S. Customs Service                           9
           f. Internal Revenue Service                       9
           g. U.S. Secret Service                            9

F.   FINDINGS
     1.    Federal statutes, such as the Freedom of
           Information and Privacy Acts, recognize
           the need for Federal law enforcement and
           security agencies to maintain "raw
           intelligence files" for criminal law
           enforcement and security data bases.              10

     2.    Adoption of a probable cause standard
           would result in the loss of valuable law
           enforcement information. This would harm
           the ability of the DoD to work with
           Federal law enforcement, security,
           intelligence and counterintelligence
           agencies by, in effect, censoring the data
           which goes into the DCII.                         11
I .


           3.   A determination of probable cause is too
                high a standard for titling decisions
                listing an individual or entity as the
                subject of an investigation.                    13

           4.   The NIS, the O S I , and the DCIS, which rely
                on the DCII as their data base, would each
                have to establish separate data bases
                similar to the duplicative system used by
                the Army.                                       13

           5.   The Army system for titling is not
                effective for law enforcement and
                investigative purposes.                         13

      G.   RECOMMENDATIONS
           1.   The IG, DoD, should establish a uniform
                standard for the DCIOs titling individuals
                as the subject of an investigation. This
                action will result in uniformity in the
                information going into the DCII, and will
                promote efficiency in the criminal
                investigative program. -                        15
           2.   The uniform standard for'titling should be
                established through the issuance of a
                Department of Defense policy document.          15

           3.   The uniform standard for all titling
                established by the fG, DoD, should be that
                all titling decisions will be based on a
                determination that sufficient evidence
                exists to warrant an investigation. This
                standard is recommended because it will be
                the most efficient and is the prevailing
                titling standard utilized by both DoD and
                non-DoD law enforcement agencies.
                Adoption of this standard will require
                revision of Army CID Regulation 195-1 and
                A m y Regulation 195-2 to remove the
                probable cause standard for titling, and
                prevent deletion of names of investigative
                subjects from the DCII.                         15
I .


                  TITLING AND INDEXING PROCEDURES UTILIZED BY
                THE DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS

      A.   INTRODUCTION

           Recently, The House Armed Services Committee (HASC) conducted
      a review of the military criminal investigative organizations
      (MCIOs). The HASC report recommended that a uniform standard for
      Ittitlingtt
                individuals as the subject of an investigation needed to
      be established for the MCIOs. Further, the report recommended that
      the other military departments revise their procedures along the
      lines of the Army policy to ensure that probable cause has been
      proven before Ittitlingtt
                              occurs. The Inspector General, Department
      of Defense (IG, DoD) was asked to monitor the implementation of its
      actions and inform the committee of its findings [National Defense
      Authorization Act for Fiscal Year 1991, House Report Number 101-665
      at p. 2161.
      B.   PURPOSE AND SCOPE OF STUDY

           The Inspector General Act provides that the IG, DoD, develop
      policy, monitor, and evaluate program performance, and provide
      guidance to all DoD activities relating to the criminal
      investigation program. The IG, D o c , in carrying out those
      responsibilities and the HASC's request to monitor this issue,
      conducted a study of titling policies and procedures in the DoD
      investigative organizations. Policies and procedures of other
      "traditionalttfederal law enforcement organizations were also
      reviewed. The others were included in order to present a
      comprehensive picture of the titling process and its significance
      in the law enforcement community.
           The titling procedures of the MCIOs: the Army Criminal
      Investigation Command (CID), the Naval Investigative Service (NIS),
      and the Air Force Office of Special Investigations (OSI), were
      reviewed in detail. Also reviewed were the titling procedures of
      the Defense Criminal Investigative Service (DCIS), the Defense
      Investigative Service, Department of the Army Military
      Intelligence-Counterintelligence, and five major non-DoD law
      enforcement agencies, specifically the Federal Bureau of
      Investigation, the Bureau of Alcohol Tobacco and Firearms, the U.S.
      Customs Service, the Internal Revenue Service, and the U . S . Secret
      Service.
      c.   SUMMARY

           The primary purpose for titling an individual as the subject
      of a criminal report of investigation is to ensure that information
      contained in the report can be retrieved at some future point in
      time for law enforcement and security purposes. This is strictly
      an administrative function. The retrieval is achieved by searching
      various indices of investigations for the names of persons who are
      subjects or otherwise titled during an investigation. Experience
      has shown that the existence of these indices frequently allows
                                                                       2


I
    agencies to avoid duplicative investigations and set aside similar
    allegations more quickly. This can be accomplished by locating and
    reviewing previous investigative records compiled regarding the
    titled and indexed entity.
         The CID was found to be the only law enforcement or
    investigative agency that uses a probable cause standard for
    titling individuals as the subject of an investigation. The
    standards for titling for the other law enforcement agencies range
    from a credible evidence standard to the mere receipt of an
    allegation or complaint. Evidence sufficient to warrant an
    investigation was found to be the predominate standard used for
    titling decisions. Also, as discussed in section F.l. of this
    report, various Federal statutes authorize law enforcement agencies
    to maintain information for identifying both criminal offenders and
    alleged offenders.
         Each of the law enforcement agencies queried during this
    review had strong reservations regarding the use of probable cause
    as the standard for titling an individual as the subject of an
    investigation. They opined that the standard recommended in the
    HASC report, if implemented, would have significant negative impact
    on the DoD and upon the ability of non-DoD law enforcement
    agencies, such as the FBI, to acces's and use DoD investigative
    information as it would severely limit the entry of names into the
    Defense Clearance and Investigations'Index (DCII).
         Our study resulted in the,following recommendations:
         1. The IG, DoD, should establish a uniform standard for the
    CID, NIS, O S I , and DCIS [referred to as the Defense Criminal
    Investigative Organizations (DCIOs)], titling individuals as the
    subject of an investigation. This action will result in uniformity
    in the information going into the DCII, and will promote efficiency
    in the criminal investigative program.
         2.  The uniform standard for titling should be established
    through the issuance of a Department of Defense policy document.
         3.  The uniform standard for all titling established by the
    IG, DoD, should be that all titling decisions will be based on a
    determination that sufficient evidence exists to warrant an
    investigation. This standard is recommended because it will be the
    most efficient and is the prevailing titling standard utilized by
    both DoD and non-DoD law enforcement agencies. Adoption of this
    standard will require revision of Army CID Regulation 195-1 and
    Army Regulation 195-2 to remove the probable cause standard for
    titling, and prevent deletion of names of investigative subjects
    from the DCII.
I .
                                                                           3


      D.   BACKGROUND

            1.   PURPOSE OF INVESTIGATIONS AND REPORTS:

           The purpose of a criminal investigation is to prove or
      disprove an allegation of criminality and not to establish the
      guilt or innocence of an individual. Due process requires that
      guilt or innocence be established in a court of law. The report of
      investigation is merely the repository for all those facts tending
      to prove or disprove the allegation, gathered through observation,
      interviews, and examination of documentary and physical evidence,
      obtained during the course of a thorough investigation. The fact
      that an individual was the subject or otherwise titled during the
      course of an investigation should not connote guilt or innocence,
      nor should that fact carry with it any stigma upon which
      responsible individuals would initiate any inappropriate
      administrative action. The value of maintaining investigative
      information is to show that an allegation was raised, pursued,
      proved, disproved, or in some instances, to establish a modus
      operandi.
            2.   PURPOSE OF TITLING:

           The primary purpose for titliGg an individual as the subject
      of a criminal report of investigation is to ensure that information
      contained in the report can be retrieved at some future point in
      time, for law enforcement and security purposes. This is strictly
      an administrative function.
           All the law enforcement agencies contacted during the study
      believe that correct and accurate titling information is essential
      for maintaining indices for the retrieval of file information and
      identifying records. The most common method of sharing that
      information is by identifying the subject by surname.
            3.   DEFENSE CLEARANCE AND INVESTIGATIONS INDEX:

           The Department of Defense established the Defense Central
      Index of Investigations (DCII) in February 1966. The DCII was
      established, pursuant to a Secretary of Defense Memorandum dated
      December 3 , 1965, in accordance with Title 5, United States Code,
      Section 301. The memorandum intended that the DCII constitute a
      computerized central index of investigations for all of the DoD
      investigative activities. The name was recently changed to the
      Defense Clearance and Investigations Index to better reflect the
      actual contents and use of the index.
           The DCII includes not only criminal investigation files, but
      background and security investigations as well. The index is,
      therefore, a computerized index for all DoD investigative files.
      The index was created using the name of the individual or entity
      titled in the investigation. This indexing system allows law
      enforcement agencies to identify and retrieve investigative files
      and to coordinate and share valuable law enforcement information.
                                                                    4


There are other frequent users of the DCII system, i.e., non-DoD
Federal law enforcement agencies, as well as various security and
intelligence agencies. There are approximately 2 0 . 2 million
investigative entries in the DCII, with approximately 2 million
entries added each year.
     Once an investigation is initiated, that fact is reported to
the DCII by the DCIOs. The NIS, the OSI, and the DCIS use the DCII
as a computerized data base for their investigative files. That
data base contains a listing of investigation reports and is shared
by a host of law enforcement users for various purposes, i.e.
criminal investigations, security clearances, establishing a modus
operandi, and identifying fraud schemes. The DCII listing is by
subject name with some identifying data, but does not set forth the
ultimate disposition of the investigation. The user must contact
the originating agency and review the file in order to determine
the final outcome of the case, and any judicial or administrative
disposition of a particular investigation. It should be noted that
the Army CID also uses DCII, but maintains a record of the fact
that an investigation of an individual subject was conducted in a
separate Army data base for a period of forty years. This is true
even in those instances where there is a finding of no probable
cause and the CID deletes an individual's name from the DCII data
base (see the following discussion of CID titling procedures).
E.   CURRENT TITLING AND INDEXING PROCEDURES:

      1.   ARMY CRIMINAL INVESTIGATION COMMAND (CID)

     The CID system was studied at length. This was done because
the HASC recommendation cites this system as what the DoD standard
should be. The CID is the only law enforcement agency contacted
that bases titling, and resultantly indexing, decisions on a
probable cause determination. The following is an overview of the
CID titling process:
     Under the CID system, a preliminary investigation is conducted
on every allegation received, assuming the CID has jurisdiction
over the possible offense. Once the agent develops enough credible
evidence during the course of the investigation to determine that
an offense was committed and that an individual has committed the
offense, that individual is "titled It in an initial report of
investigation (ROI) as a suspect, or subject of an open case. The
name of the subject or suspect will be removed at a later date if
the probable cause standard is not met (see discussion below). The
name of a victim may also be indexed depending upon the facts of
the particular case. The titling information is then transmitted
to the DCII. In some instances, the report is transmitted under a
code name or file number and is not retrievable by subject name,
thereby making the entry of no value to other non-Army users of the
DCII. The information in these instances remains unretrievable for
months, or even years, until the conclusion of the investigation
and a formal titling decision is made.
                                                                 5


    An  example of the potentially adverse impact of this process
can be seen in the case of an Army General Officer who was under
investigation regarding alleged improper actions during a contract
award and for travel fraud. The General was not lltitledllas a
subject so his name was not entered into the DCII. An action was
proposed regarding the General, requiring Congressional
concurrence. When the DCII was researched no record of the ongoing
investigation was found. Congress was therefore unintentionally
not informed of the allegations or status of the investigation and
acted based upon insufficient information. Congressional hearings
were later conducted regarding this matter.
     At the time of preparation of a final ROI, there is a
requirement, under Army CID Regulation 195-1, for the CID agent to
coordinate the findings of the report with a Staff Judge Advocate
(SJA) office to determine if probable cause exists. The probable
cause determination considers two factors: is there sufficient
probable cause to believe that an offense subject to the Uniform
Code of Military Justice was committed; and is there sufficient
probable cause to believe that the individual(s) listed in the
title block committed the offense. This process is lengthy and
time consuming, frequently taking months to accomplish.
     The SJA makes a recommendation based on the sufficiency of the
facts in the final ROI as to whether probable cause exists. This
is not the finding of a neutral and detached magistrate. No
hearing is held, no evidence is reviewed other than that contained
in the investigative file. The subject is given no opportunity to
present any evidence. The SJA who reviews the file is not a
judicial officer and is often an Army trial counsel or a legal
advisor to the CID. The investlgator and supervisor make the final
determination to title the individual after legal advice is
provided. The individual is listed in the title block of the final
ROI, if a determination is made that there is sufficient probable
cause. The information in the final ROI is transmitted to the DCII
for listing by subject name. The information concerning the
existence of the investigation then becomes known to other non-Army
users of the DCII.
     If, however, it is determined that there is no probable cause
as to either the offense or the individual, the case is closed and
the individual's name is removed from the title block. Hence, if
an investigation is closed by the CID as unfounded, no information
concerning the identity of the individual who was the subject of
the investigation remains in the DCII. Further, the initially
reported code name or sequence number for an investigation
originally submitted in that manner is deleted from the DCII.
     [Note: The removal action of a subject name from DCII is
     not always an automatic procedure. Often, the individual
     who was the subject of the investigation must submit a
     Privacy Act Request to amend the ROI to delete the
     individual from the title block. See further discussion
     below. ]
                                                                 6



     A record of the fact that an investigation of an individual
subject was conducted remains in a separate Army data base for a
period of forty years. This is true even in those instances where
there is a finding of no probable cause and the CID deletes an
individual's name from the DCII data base. The CID has access to
that separate data base and can retrieve information concerning
investigations and individuals. However, few of the other Federal
law enforcement agencies who use the DCII were aware of the Army's
separate data base and assumed that all of the CID investigations
were input to DCII.
     Individuals, who were investigated by the CID, titled based on
probable cause, and entered into the DCII, can, under the
provisions of Army Regulation (AR) 195-2, present new evidence to
the Commander of CID and request that their name be removed from
the title block. Also, individuals can petition the Army Board for
the Correction of Military Records (ABCMR) to have their name
removed from the title block. This may be done citing the Board's
equitable authority, under Title 10 United States Code, Section
1552, as prescribed by AR 15-185.

     The ABCMR has directed that names (both military and civilian)
be removed from the title block and that the name of the individual
be expunged from the investigative file. This action was directed
even when the investigative file clearly established probable
cause. The decision to delete a name from the title block results
in the removal of the file from the DCII.
     [Note: Neither the Navy nor Air Force Boards for the
     Correction of Military Rec6rds has ever taken a
     corrective action that resulted in the deletion of a NIS
     or AFOSI investigation from the DCII.]
     2.   NAVAL INVESTIGATIVE SERVICE (NIB)

     The NIS decides to open an investigation once an agent has
analyzed whether: there is merit to the complaint; the complainant
is providing valid information regardless of motive; and the matter
falls within the investigative jurisdiction of NIS. Once an
investigation is commenced, it is indexed and cross-indexed
(titled) in accordance with the DCII guidelines. NIS uses personal
titles (subject, co-subject, victim, alias), or impersonal titles
(generic/incident, company and organization), and project names.
This is an investigative decision and there is no requirement for
formal coordination with the SJA. Every investigation has a master
title that is used to index and to retrieve files. That indexing
information is input into the DCII system when a case is opened.
Except in the case of mistaken identity, the NIS very rarely
removes titling information from the DCII.
                                                                 7


     3.   AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS (081)

     The OSI decides to open an investigation once an agent
determines whether: there is merit to the complaint; the
information provided by the complainant is credible; and the matter
is within the jurisdiction of the OSI. There is no formal
requirement for coordination with the SJA and the decision to open
and title an investigation is made by the investigators. The
investigative file is indexed and cross-indexed (titled) by subject
name, by entity or organization, or if the subject is unknown, by
geographic location and date of the incident. That information is
entered into the DCII system at case initiation. Like the NIS, the
OSI rarely removes data from the DCII, except in a case of mistaken
identity  .
     4.   DEFENSE CRIMINAL INVESTIGATIVE SERVICE (DCIS)

     The DCIS initiates an investigation and titles an individual
when there is sufficient evidence to determine that an
investigation is warranted. That procedure depends on a review of
the nature of the allegation, the source of the allegation, and a
determination of jurisdiction. Each investigative document has a
title that identifies the subject qf the investigation by business
entity name, name of the individual, or a description of the
incident under investigation. The decision to open an
investigation is made by the Special Agent in Charge at the
location where the incident occurred. There is no formal
requirement for legal coordination prior to making a titling
decision. The information is sent to the DCII once an
investigation is initiated. The DCIS does not remove information
from the DCII, except information that is clearly erroneous, i.e.,
mistaken identity.


     The titling and indexing policies of seven additional DoD and
non-DoD law enforcement and investigative agencies were reviewed
during the study. This was done in order to present a
comprehensive overview of the titling and indexing process and its
significance among Federal law enforcement agencies. In summary,
none of the other organizations reviewed based their lttitlingtI
decision on a probable cause standard. They use, almost without
exception, the standard of Ilsufficient evidence to warrant an
investigationu1to title and index investigative subjects. The
procedures for each of the seven additional agencies reviewed are
presented below.
              a.   DEFENSE INVESTIGATIVE SERVICE (DIS)

          The DIS differs from the other DoD investigative agencies
in that its primary mission is to conduct non-criminal background
investigations for security clearances. As such, requests for
security clearances already list the name of the subject of the
investigation when sent to DIS. Therefore, the individual upon
                                                                 8


whom a background investigation is conducted becomes the title of
the investigation. This procedure is applicable to both
individuals and corporate entities. The DIS initiates its
investigation by first consulting the DCII to determine whether
another DoD agency is conducting or has conducted an investigation
on the subject of their investigation. If another DoD agency is
conducting or has conducted an investigation on the subject, DIS
contacts the agency and incorporates their file into the DIS report
of investigation.
     It is the responsibility of DIS to determine suitability for a
position of trust by issuance of a security clearance required for
employment. The requestor adjudicates the results of the DIS
investigation and determines whether or not to employ the
individual. Once the DIS initiates an investigation, that fact is
reported to the DCII. There is no probable cause determination
necessary to initiate an investigation and no formal requirement
for legal review before titling. The DIS does not remove titling
information from the DCII.
     b. DEPARTMENT OF THE ARMY DEPUTY CHIEF OF STAFF INTELLIGENCE-
COUNTERINTELLIGENCE CENTRAL CONTROL OFFICE (DAMI-CI-CIC)
                                  -
          The DAMI-CI-CIC opens an investigation based on a
credible evidence standard. The field agent normally receives an
allegation of espionage from a source. The allegation is reviewed
to determine whether: DAMI-CI-CIC has jurisdiction over the
allegation; the information received is credible; and the source is
credible. The major subcontrol offices decide to open an
investigation. The title of the investigation is referenced by
location, date, and category of-offense, not by subject name. The
individual suspect is not listed in the title block. The titling
decision is administrative in nature for record keeping and
retrieval purposes and does not require a formal legal review.
Unlike the DCIOs and the DIS, DAMI-CI-CIC does not report open
investigations to the DCII. After the investigation is closed, the
DAMI-CI-CIC refers the file to the U.S. Army Records Repository
which enters the file into the DCII once the file is closed. There
is no mechanism for removing a suspect's name from the report of
investigation.
          c.   FEDERAL BUREAU INVESTIGATION (FBI)

          According to the Field Office Operations Manual of the
FBI, the purpose of indexing (the FBI equivalent of titling) is to
record individual names and impersonal names (such as corporations
and property), which are relevant to FBI investigations. This
process is used so that information can be retrieved, if necessary,
to support an efficient and effective case management system for
current and future investigations. Only information which is
relevant and necessary to accomplish a purpose authorized by
statute, Executive Order of the President, or by the Constitution,
is recorded in FBI files.
                                                                    9


      Mandatory indexing is required for: 1) case title information
(which is any information that is or should be in the title of any
case file, including, but not limited to, all known aliases);
2 ) recipients of subpoenas; 3 ) individuals polygraphed; 4 ) elec-
tronic surveillance; 5) stop notices, (i.e., notices to stop a
vehicle); 6) cooperative witnesses; and 7) tlzerott  file matters
(names of complainants, security officers of private institutions
or law enforcement officers). Discretionary indexing can be done
for all individuals who furnish information or names developed
during the course of an investigation. Indexing is a function
performed by the case agent and supervisor. There is no formal
requirement for legal coordination before titling.
          d.   BUREAU OF ALCOHOL, TOBACCO AND FIREARMS (BATF)

          The BATF initiates an investigation based upon the
receipt of an allegation or complaint. The name of the individual
or entity that is the subject of the allegation or complaint
becomes the title of the investigation. The mere receipt of the
allegation or complaint is sufficient to title the individual. The
titling process is administrative in nature and is used as a means
of recording and retrieving investigative files. There is no re-
quirement for legal review prior to titling an individual as the
subject of an investigation.
          8.   U.S.   CUSTOMS SERVICE

          The Customs Service,titles an individual on the receipt
of an allegation involving a serious administrative or criminal
matter. Listing someone as the subject of an investigation is
primarily an administrative record keeping practice and is not an
indication that an individual has committed an offense. Customs
does not remove an individual from the title block, even if the
allegation is proven to be unfounded. The titling process is an
investigative decision and does not require formal legal review.
          f.   INTERNAL REVENUE SERVICE (IRS)

          The IRS initiates an investigation based on the receipt
of an allegation or complaint. The taxpayer who is the subject of
the allegation or complaint is listed as the subject of the
investigation (titled). There is neither a requirement to
establish probable cause, nor a requirement for legal review prior
to making the titling decision.
          g.   U.S.   SECRET SERVICE

          The Secret Service initiates an investigation based on
the receipt of an allegation or a complaint. The agent performs an
initial inquiry into the validity of the complaint, the credibility
of the source, and jurisdiction over the subject matter of the
complaint. The report of investigation is listed (titled) in the
name of the individual involved, or by incident if a subject cannot
be identified. There is no formal requirement for legal coordina-
                                                                 10


tion prior to reaching a titling decision. The decision to title
an individual or incident is an investigative determination made by
the agent and is for administrative purposes only. The Secret
Service does not remove individuals from the title block even if
the allegation is unfounded.
F.   FINDINGS

     1. Federal statutes, such as the Freedom of Information and
Privacy Acts, recoqnize the need for Federal law enforcement and
security asencies to maintain "raw intellisence files" for criminal
law enforcement and security data bases.
          a. The agencies studied pointed out that the Freedom of
Information and Privacy Acts, Title 5, United States Code, Sections
552j and k, both recognize the need for Federal law enforcement
agencies to maintain investigative files with raw information and
to have the ability to retrieve that data for law enforcement and
security purposes (see paragraphs b.-d. below). Those statutes
provide adequate safeguards to protect the need to collect and
store such information and protect individuals against unwarranted
intrusions of their privacy. Adoption of the HASC standard would,
in fact, add little to ensure the privacy of the individual.
          b. Title 5, United States,Code, Section 552a(4) defines
the term "recordttas "any item, collection, or grouping of
information about an individual that is maintained by an agency,
including, but not limited to, his education, financial
transactions, medical history, and criminal or employment history
and that contains his name, or identifying number, symbol, or other
identifying particular assigned to the individual...".
          c. Title 5, United States Code, Section 552j(2)(A)
authorizes agencies whose primary function is law enforcement to
maintain "information compiled for the purpose of identifying
individual criminal offenders and alleged offenders...I1 (emphasis
added), and @tinformationcompiled for the purpose of a criminal
investigation.. .I1.
          d. Furthermore, Title 5, United States Code, Section
552k(2) provides special authority for law enforcement agencies to
maintain investigative material. Normally, Title 5, United States
Code, Section 552(e)(5), requires Federal agencies to maintain "all
records which are used by the agency in making any determination
about any individual with such accuracy, relevance, timeliness, and
completeness as is reasonably necessary to assure fairness to the
individual in the determination." However, Congress specifically
exempted law enforcement agencies from that requirement by
promulgating Title 5, United States Code, Sections 552j and 552k.
Congress clearly recognized the need for law enforcement agencies
to maintain raw investigative data.
          e. Other considerations regarding the titling of
investigative files by subject name involve requests under the
                                                                 11


Freedom of Information Act (FOIA), Title 5, United States Code,
Section 5 5 2 . Those considerations are twofold: 1) the ability of
the requestor to identify the information sought; and 2 ) the
ability of the agency to defend against potential law suits. It
would be all but impossible for the DCIOs to comply with FOIA
requests or to defend against potential law suits if investigative
files were not indexed (titled) by subject name.
     2. AdODtion of a probable cause standard would result in the
loss of valuable law enforcement information. This would harm the
ability of the DoD to work with Federal law enforcement, security,
intelliffence and counterintelliffence aqencies by, in effect,
censorins the data which qoes into the DCII.

          a. The investigative and law enforcement agencies had a
serious concern regarding the probable cause standard employed by
the CID. The concern is that a subject name would not be input, or
can be deleted from, the DCII if probable cause is not established
by the final report of investigation. Adoption of the HASC
recommendation could result in erasing millions of records of
investigations for all of the DoD investigative agencies. Most of
the law enforcement agencies check the DCII at the beginning of
their criminal and background investigations. This would severely
hamper the ability of investigators to successfully conduct such
investigations.
          b. The DoD DCII, allows investigators, both DoD and non-
DoD, to identify previous and,current investigations. The fact
that a previous investigation was conducted is valuable
investigative information that should not be deleted from the DCII.
The identification of numerous investigations of the same company
or individual, for a similar crime, allows the Government to
identify a pattern and practice of misconduct. Such patterns can
provide a basis for the Government to coordinate appropriate
criminal, civil, contractual, and administrative remedies for
procurement fraud. Further, previous investigations, regardless of
their outcome, can be used to: establish a modus operandi in
subsequent investigations of the same person; avoid duplicate
investigations; record previous allegations; update security
clearances; and provide a starting point for follow-on
investigations on the same individuals or entities. The HASC
recommendation would wipe out a large portion of this intelligence
data base. Law enforcement agencies other than CID rarely, if
ever, delete information from the DCII data base, unless the
information is clearly erroneous, i.e., mistaken identity.
          c. One example that illustrates the need for maintaining
information in the DCII on unfounded allegations is ItI11Wind." A
DCII check on some individuals, who later became targets during the
I11 Wind investigation, revealed that there were previous
investigations of those individuals for similar misconduct. The
previous allegations were similar to the new allegations, lending
some credibility to the new allegations. As a result, the new
allegations were pursued. Had those previous cases been conducted
                                                                 12


by the CID, and the CID procedures followed, the information
concerning the previous investigations would not have been in the
DCII.
                In a further example, an individual in the western
part of the U . S . had been investigated several times by different
agencies. The individual wrote to members of Congress asking for
relief from multiple repetitive investigations. The DCIS received
allegations regarding this individual. A DCII check revealed the
existence of the prior cases. A review of the files located
through the DCII check resulted in an expeditious resolution of the
matter. The individual subject wrote thank you letters to the DoD,
acknowledging the rapid and professional manner in which DCIS was
able to conclude the matter. The waste of valuable limited
investigative resources, as well as another investigation being
imposed on this individual was prevented.
          d. Some military cases, such as child abuse by DoD
physicians and teachers, are resolved by commanders before a
judicial finding of probable cause can be reached. Cases have been
identified where the subject is allowed to resign from the DoD, and
solicit employment with another Federal agency or state or local
organization. The military investigative file is the only record
of the investigation that can be used to alert public health and
safety officials to such investigations. The use of probable cause
for titling would remove the record of these investigations.
          e. Congress recently mandated closer cooperation between
the DoD and civilian law enforcement agencies on such matters. For
example, The Defense Authorization Act of 1990, Public Law 101-510,
requires the DoD to develop a closer working relationship with the
Department of Justice on child abuse cases. More recently, The
Victims of Child Abuse Act of 1990 [incorporated into the Crime
Bill of 1990, Public Law 101-6471, requires that DoD officials, to
include law enforcement agencies, improve the manner in which child
abuse investigations are conducted. The Act places reporting
requirements on DoD law enforcement officials that cannot be met if
the CID probable cause standard is adopted. The HASC
recommendation would destroy any meaningful cooperation in such
cases if probable cause must be established before an individual or
entity could be titled as the subject of an investigation.
          f. Congress also has placed emphasis on an increase in
DoD involvement in efforts to combat drugs. One of the primary
functions DoD assets perform is to engage in gathering criminal
intelligence. The HASC standard for indexing (titling) would
reduce retrievability of information gathered by DoD investigators
participating in such drug task force efforts.
                                                                   13


     3. A determination of probable cause is too hish a standard
for titlina decisions listina an individual or entity as the
subject of an investiaation.

          a. A probable cause determination is a legal
determination that should be made by the courts and should not be
made a part of the investigative process. A court of law is
certainly more qualified to rule on questions of admissibility of
evidence, hearsay, search and seizure, etc., in arriving at a
probable cause determination than are an agent and supervisor
conducting an investigation. Even the SJA coordination process
required by CID Regulation 195-1 is not a true safeguard because
the SJA is not a detached and neutral magistrate.
          b. Another major concern of the agencies is that by
establishing probable cause as the standard for determining titling
decisions, there is a predisposition in the investigative report to
reach a finding of guilt or innocence. Under the HASC
recommendation, the investigator would have to establish probable
cause as to the offense and, secondly, probable cause as to the
individual who committed the offense. The report of investigation
then becomes conclusionary in nature. This is universally
recognized as an inappropriate use-of the investigative process and
could also lead to a variety of abuses in administrative due
process. The report should remain an objective repository of the
facts and evidence bearing on the allegations.
     4. The NIS, the 061, and the DCIS, which rely on the DCII as
their data base, would each have t o establish separate data bases
similar to the duplicative system
                               -  used by the Army.

          a. As discussed earlier the Army, in fact, maintains a
separate data base from DCII. They capture and can retrieve names
of individual subjects regardless of deletions made to the DCII due
to lack of probable cause. The HASC recommendation would
necessitate creation and maintenance of similar systems in the
Navy, Air Force, and by the DCIS so investigative information could
be retrieved. Also of concern is the necessity of having to
maintain such a data base to honor Freedom of Information Act
requests and defend against potential law suits.
          b. A separate computer system would be necessary to
contain the records expunged from the DCII due to a lack of
probable cause. The Navy and Air Force were concerned about the
high cost of establishing such a data base. An additional system
is an unnecessary duplication of effort and expense.
     5. The Army system for titlina is not effective for law
enforcement and investiqative purposes.

          a. Two drawbacks in addition to those discussed above
are inherent in the current CID process of titling based on
probable cause:
                                                                    13


     3.  A determination of probable cause is too hiah a standard
for titlina decisions listincr an individual or entity as the
subject of an investiaation.
          a. A probable cause determination is a legal
determination that should be made by the courts and should not be
made a part of the investigative process. A court of law is
certainly more qualified to rule on questions of admissibility of
evidence, hearsay, search and seizure, etc., in arriving at a
probable cause determination than are an agent and supervisor
conducting an investigation. Even the SJA coordination process
required by CID Regulation 195-1 is not a true safeguard because
the SJA is not a detached and neutral magistrate.
          b. Another major concern of the agencies is that by
establishing probable cause as the standard for determining titling
decisions, there is a predisposition in the investigative report to
reach a finding of guilt or innocence. Under the HASC
recommendation, the investigator would have to establish probable
cause as to the offense and, secondly, probable cause as to the
individual who committed the offense. The report of investigation
then becomes conclusionary in nature. This is universally
recognized as an inappropriate use-of the investigative process and
could also lead to a variety of abuses in administrative due
process. The report should remain an objective repository of the
facts and evidence bearing on the allegations.
     4. The NI8, the 061, and the DCIS, which rely on the DCII as
their data base, would each have t o establish separate data bases
similar to the duplicative system
                               -  used by the Army.

          a. As discussed earlier the Army, in fact, maintains a
separate data base from DCII. They capture and can retrieve names
of individual subjects regardless of deletions made to the DCII due
to lack of probable cause. The HASC recommendation would
necessitate creation and maintenance of similar systems in the
Navy, Air Force, and by the DCIS so investigative information could
be retrieved. Also of concern is the necessity of having to
maintain such a data base to honor Freedom of Information Act
requests and defend against potential law suits.
          b. A separate computer system would be necessary to
contain the records expunged from the DCII due to a lack of
probable cause. The Navy and Air Force were concerned about the
high cost of establishing such a data base. An additional system
is an unnecessary duplication of effort and expense.
     5. The Army system for titlina is not effective for law
enforcement and investiqative purposes.

          a. Two drawbacks in addition to those discussed above
are inherent in the current CID process of titling based on
probable cause:
I .
                                                                        14


                     1)  There may be too great a time delay between the
      time when a file is preliminarily reported to the DCII by the CID,
      and the time when it is finally reported in a retrievable manner
      following a final determination of probable cause. Numerous other
      ongoing investigations of the same individual could be initiated by
      the DCIOs during that time period. However, because of the CID
      practice, the other organizations may not know of the existence of
      an ongoing CID investigation of the same subject. That has an
      adverse impact on the ability of the other DCIOs to coordinate
      their investigative activity with the CID.

                       2)  The time delays in reporting final information
      to the DCII caused by the coordination process between the agent
      and S J A have an adverse impact on other DoD agencies conducting
      investigations.
                b. Officials of CID expressed concerns that the process
      of establishing probable cause is:
                     1) A time consuming process of coordination between
      the agent and the SJA during the preparation of the final report of
      investigation establishing probable cause;
                     2 ) A time consuming'process of reviewing and
      deleting reports of investigation where probable cause was not
      established and instances where individuals have submitted Privacy
      Act requests for amendments to reports of investigation; and
                     3 ) A burden placed on an individual who is the
      subject of a CID report of investigation and requests to have his
      name removed from the title bloek. That individual must present
      substantial evidence to refute a probable cause determination.
      Much of that effort is unnecessary, considering that the primary
      function of Iltitling" is merely to provide an administrative method
      whereby files are indexed and retrieved.
                c. The IG, DoD, issued a report in February 1987,
      pointing out the adverse impact of the CID procedure of deleting
      investigative records from the DCII due to a lack of probable
      cause. The IG, DoD, recommended that the CID procedure of deleting
      information from the DCII be discontinued, except in the case of
      juvenile offenders. The CID rejected that recommendation and
      continues the process to the present. The other law enforcement
      agencies also complained about the CID procedure of expunging
      investigative files from DCII.
           G.   RECOMMENDATIONS:

           The titling procedures between the CID and the DCIOs vary
      greatly. That disparity has lead to an inefficient use of the DCII
      and has negatively impacted on the ability of the DCIOs and other
                                                                   15


investigative and law enforcement agencies to conduct
investigations. It is recommended that:
     1. The IG, DoD, should establish a uniform standard for the
DCIOs titling individuals as the subject of an investigation. This
action will result in uniformity in the information going into the
DCII, and will promote efficiency in the criminal investigative
program.
     2.  The uniform standard for titling should be established
through the issuance of a Department of Defense policy document.
     3.  The uniform standard for all titling established by the
IG, DoD, should be that all titling decisions will be based on a
determination that sufficient evidence exists to warrant an
investigation. This standard is recommended because it will be the
most efficient and is the prevailing titling standard utilized by
both DoD and non-DoD law enforcement agencies. Adoption of this
standard will require revision of Army CID Regulation 195-1 and
Army Regulation 195-2 to remove the probable cause standard for
titling, and prevent deletion of names of investigative subjects
from the DCII.
